Report of the Inspector General for the U.S. Equal Employment Opportunity Commission on Agency Compliance for Fiscal Year 2011 with the Improper Payments Elimination and Recovery Act (IPERA) (OIG Report No. 2012-04-IPERA)
Skip top navigation
Skip to content
Español | Other Languages
U.S. Equal EmploymentOpportunity Commission
Home
About EEOC
Overview
The Commission
Meetings of the Commission
Open Government
Newsroom
Laws, Regulations, Guidance & MOUs
Budget & Performance
Enforcement & Litigation
Initiatives
Interagency Programs
Publications
Statistics
Outreach & Education
Legislative Affairs
FOIA & Privacy Act
Doing Business with EEOC
Jobs & Internships
EEOC History
Office of Inspector General
Employees & Applicants
Overview
Coverage
Timeliness
Filing A Charge
How to File
Charge Handling
Confidentiality
Mediation
Remedies
Existing Charges
Filing a Lawsuit
Discrimination by Type
Age
Disability
Equal Compensation
Genetic Information
Harassment
National Origin
Pregnancy
Race/Color
Religion
Retaliation
Sex
Sexual Harassment
Prohibited Practices
Employers
Overview
Coverage
Charge Handling
Resolving a Charge
Remedies
Discrimination by Type
Age
Disability
Equal Compensation
Genetic Information
Harassment
National Origin
Pregnancy
Race/Color
Religion
Retaliation
Sex
Sexual Harassment
Prohibited Practices
Recordkeeping
EEO Reports/Surveys
"EEO Is The Law" Poster
Training
Other Employment Issues
Federal Agencies
Overview
Federal Employees & Applicants
Federal Complaint Process
Discrimination by Type
Other Federal Protections
Prohibited Practices
Federal EEO Coordination
Federal Agency EEO Directors
Laws, Regulations, Guidance & MOUs
Management Directives & Federal Sector Guidance
Federal Sector Alternative Dispute Resolution
Federal Sector Reports
Appellate Decisions
Digest of EEO Law
Form 462 Reporting
Federal Training & Outreach
Contact Us
Contact EEOC
Find Your Nearest Office
Frequently Asked Questions
About EEOC
Overview
The Commission
Meetings of the Commission
Open Government
Newsroom
Laws, Regulations, Guidance & MOUs
Budget & Performance
Enforcement & Litigation
Initiatives
Interagency Programs
Publications
Statistics
Outreach & Education
Legislative Affairs
FOIA & Privacy Act
Doing Business with EEOC
Jobs & Internships
EEOC History
Office of Inspector General
Home > About EEOC > Office of Inspector General
March 12, 2012
Jacqueline A. Berrien
Chair
U.S. Equal Employment Opportunity Commission
131 M St. NE
Washington, DC 20507
Homeland Security and Governmental Affairs Committee
United States Senate
340 Dirksen Senate Office Building
Washington, DC 20510
Committee on Oversight and Governmental Reform
United States House of Representatives
2157 Rayburn House Office Building
Washington, DC 20515
Gene L. Dodaro
Comptroller General of the United States
U.S. Government Accountability Office
441 G Street, NW
Washington, DC 20548
Daniel I. Werfel
Controller, Office of Federal Financial Management
Office of Management and Budget
725 17th Street, NW
Washington, DC 20503
Report of the Inspector General for the U.S. Equal Employment Opportunity Commission on Agency Compliance for Fiscal Year 2011 with the Improper Payments Elimination and Recovery Act (IPERA) (OIG Report No. 2012-04-IPERA)
The Improper Payments Elimination and Recovery Act (IPERA; P.L. 111-204) was signed into law by President Obama on July 22, 2010. IPERA amended the Improper Payments Information Act (IPIA; P.L. 107-300) of 2002 and directed the Office of Management and Budget (OMB) to issue implementing guidance to agencies. On April 14, 2011, in accordance with the IPERA, OMB issued government-wide implementation guidance, OMB Memorandum, M-11-16, Issuance of Revised Parts I and II to Appendix C of OMB Circular A-123.
The Office of Inspector General (OIG) is required by IPERA to determine and report by, March 15, 2012, on whether the agency is in compliance with the Improper Payments Information Act.
Small agencies with improper payments less than $10 million are required to report the estimated improper payments in their annual Performance and Accountability Reports (PARs) or Agency Financial Reports (AFRs) per M-11-16 Part IA 7 Step 4c (page 10). Also, small agencies (improper payments less than $10 million) are required to conduct a risk assessment to identify programs/activities that may be susceptible to significant improper payments. If an agency determines that it is not at high risk for significant improper payments, then risk assessments are required every 3 years. If no programs are at risk for significant improper payments, the other requirements on annual reduction targets, corrective action plans, etc. are not applicable. Additionally, small agencies should have a payment recapture program in place.
To satisfy our reporting requirements, we communicated with the agencys Acting Chief Financial Officer (CFO) to determine whether a risk assessment was conducted to identify programs/activities in the agency that may be susceptible to significant improper payments and whether the agency has a payment recapture program in place. The Acting CFOs risk assessment was based on the test results and final reports from the FY 2011 financial statement audit, the SSAE 16-Type 2 audit report and agency internal controls in place relating to payments. The Acting CFO concluded that the agency is not at high risk for significant improper payments and determined that there were no improper payments made during FY 2011. As a result, the requirement for annual reduction targets, corrective action plans, etc., is not applicable. Additionally, in regard to having a payment recapture program in place, the Acting CFO indicated that if any improper payments arise in the future, there is a process in place to establish an accounts receivable and refer the debt to U.S. Department of the Treasury for cross servicing or offset. Further, both the FY 2011 Financial Statement Audit and the agencys Performance and Accountability Report (PAR) are posted on the agencys website. Based on our findings, we determined the agency has complied with the Improper Payments Information Act (IPIA), as amended by IPERA.
Sincerely,
Milton A. Mayo, Jr.
Inspector General
Privacy Policy | Disclaimer | USA.Gov